TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Passage of Late Legislation and
                        Incorrect Computer Programming
                       Delayed Refunds for Some Taxpayers
                          During the 2011 Filing Season



                                       September 28, 2011

                              Reference Number: 2011-40-128




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


THE PASSAGE OF LATE LEGISLATION                        As of April 30, 2011, the IRS had identified
AND INCORRECT COMPUTER                                 775,723 tax returns with $4.6 billion claimed in
PROGRAMMING DELAYED REFUNDS                            fraudulent refunds and prevented the issuance
FOR SOME TAXPAYERS DURING THE                          of $4.4 billion (96 percent) of those fraudulent
                                                       refunds. The IRS also selected 199,854 tax
2011 FILING SEASON
                                                       returns filed by prisoners for fraud screening, a
                                                       256 percent increase compared to last year.
Highlights                                             However, our review found that implementing
                                                       some legislative provisions such as the
Final Report issued on                                 First-Time Homebuyer Credit, Adoption Credit,
September 28, 2011                                     Nonbusiness Energy Property Credits, and
                                                       Plug-in Electric and Alternative Motor Vehicle
Highlights of Reference Number: 2011-40-128            Credits resulted in an inability to identify
to the Internal Revenue Service Commissioner           140,596 taxpayers erroneously claiming
for the Wage and Investment Division.                  $140.2 million when tax returns are processed.
                                                       In addition, 26,649 taxpayers had their
IMPACT ON TAXPAYERS                                    Homebuyer Credit inaccurately processed,
                                                       $5.8 million in repayment amounts was not
One of the challenges the Internal Revenue
                                                       assessed, and $675,063 in repayment amounts
Service (IRS) confronts each year in processing
                                                       was erroneously assessed.
tax returns is the implementation of new tax law
changes. The passage of three significant tax          WHAT TIGTA RECOMMENDED
laws affected the 2011 Filing Season. As of
April 30, 2011, the IRS received 130.7 million         TIGTA made a number of recommendations.
individual income tax returns and issued               The most significant included that the IRS
approximately 98.2 million refunds totaling            ensure taxpayers identified as erroneously
$277.1 billion.                                        claiming the credits and deductions detailed in
                                                       the report are entitled to claim them, initiate a
WHY TIGTA DID THE AUDIT                                recovery program for erroneously paid claims,
                                                       revise the programming for Homebuyer Credit
The filing season is critical for the IRS because it
                                                       repayments, and seek math error authority for
is during this time that most taxpayers file their
                                                       certain credits detailed in the report.
tax returns and contact the IRS if they have
questions about specific tax laws or filing            The IRS agreed with 12 of 14 recommendations
procedures. The overall objective of this review       and plans to take corrective action. For the two
was to evaluate whether the IRS timely and             disagreed recommendations, TIGTA continues
accurately processed individual paper and              to believe the IRS needs to take action. Related
electronically filed tax returns during the            to our recommendation to establish a
2011 Filing Season.                                    Homebuyer Credit Entity Section for each
                                                       taxpayer who received the Homebuyer Credit
WHAT TIGTA FOUND                                       rather than grouping information by primary and
The IRS timely processed the majority of               secondary Social Security Number, the lack of
individual income tax returns during the               IRS action could result in continued problems,
2011 Filing Season. However, because of the            with delays in refunds to some taxpayers. For
late passage of legislation, taxpayers claiming        the issue of allocating installment repayments,
certain deductions or itemizing deductions were        TIGTA does not agree that the IRS’s issuance of
delayed in filing their individual tax returns.        an alert will ensure that tax examiners
Electronic Return Originators held approximately       accurately allocate installment repayments.
6.5 million electronically filed tax returns and the
IRS had received and held approximately
100,000 paper tax returns until February 14.
                                                  DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 28, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Passage of Late Legislation and Incorrect
                                 Computer Programming Delayed Refunds for Some Taxpayers
                                 During the 2011 Filing Season (Audit # 201140029)

 This report presents the results of our review to evaluate whether the Internal Revenue Service
 (IRS) timely and accurately processed individual paper and electronically filed tax returns during
 the 2011 Filing Season.1 This review is included in our Fiscal Year 2011 Annual Audit Plan and
 addresses the major management challenge of Implementing Health Care and Other Tax Law
 Changes.
 The IRS agreed with 12 of our 14 recommendations. For the two disagreed recommendations,
 we continue to believe the IRS needs to take action. Related to our recommendation to establish
 a Homebuyer Credit Entity Section for each taxpayer who received the Homebuyer Credit rather
 than grouping information by primary and secondary Social Security Number, the lack of IRS
 action could result in continued problems with delays in refunds to some taxpayers. For the
 issue of allocating installment repayments, we do not agree that the IRS’s issuance of an alert
 will ensure that tax examiners accurately allocate installment repayments. These issues are
 discussed in more detail in the report.
 Management’s complete response to the draft report is included in Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and
 Account Services), at (202) 622-5916.



 1
     See Appendix VI for a glossary of terms.
                                         The Passage of Late Legislation and
                                  Incorrect Computer Programming Delayed Refunds
                                  for Some Individuals During the 2011 Filing Season




                                               Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Majority of Individual Income Tax Returns Were
          Timely Processed; However, Late Legislation Caused
          a Delay in Processing Some Tax Returns ..................................................... Page 3
          Implementing New Laws .............................................................................. Page 8
          Implementing Homebuyer Credit Provisions Continues
          to Present Challenges for the Internal Revenue Service ............................... Page 9
                     Recommendations 1 through 3:......................................... Page 13

                     Recommendations 4 through 6:......................................... Page 14

          Taxpayers Are Erroneously Receiving the Adoption
          Credit, and the Authority to Address Adoption Credit
          Noncompliance Is Limited ............................................................................ Page 15
                     Recommendations 7 through 9: ................................................ Page 18

          Taxpayers Received Erroneous Nonbusiness Energy
          Property Credits in Excess of the Maximum Amount
          Allowed ......................................................................................................... Page 19
                     Recommendation 10: ...................................................... Page 19

                     Recommendation 11: ...................................................... Page 20

          Taxpayers Continue to Erroneously Claim Qualified
          Plug-in Electric and Alternative Motor Vehicle Credits............................... Page 20
                     Recommendations 12 and 13: ................................................... Page 21

          Taxpayers Appear to Be Erroneously Claiming
          Motor Vehicle Deductions ............................................................................ Page 21
                     Recommendation 14: ................................................................ Page 24
                                The Passage of Late Legislation and
                         Incorrect Computer Programming Delayed Refunds
                         for Some Individuals During the 2011 Filing Season



Appendices
     Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 25
     Appendix II – Major Contributors to This Report ........................................ Page 30
     Appendix III – Report Distribution List ....................................................... Page 31
     Appendix IV – Outcome Measures............................................................... Page 32
     Appendix V – List of Tax Forms and Schedules Processed
     Through the Modernized E-File System....................................................... Page 36
     Appendix VI – Glossary of Terms ................................................................ Page 37
     Appendix VII – Management’s Response to the Draft Report ..................... Page 39
                                The Passage of Late Legislation and
                         Incorrect Computer Programming Delayed Refunds
                         for Some Individuals During the 2011 Filing Season




                                    Abbreviations

e-file(d); e-file(ing)       Electronically file(d); electronic filing
IRS                          Internal Revenue Service
MeF                          Modernized e-File
QMV                          Qualified Motor Vehicle
SSN                          Social Security Number
TIGTA                        Treasury Inspector General for Tax Administration
TY                           Tax Year
                                    The Passage of Late Legislation and
                             Incorrect Computer Programming Delayed Refunds
                             for Some Individuals During the 2011 Filing Season




                                             Background

The filing season1 is critical for the Internal Revenue Service (IRS) because it is during this time
that most taxpayers file their income tax returns and contact the IRS if they have questions about
specific tax laws or filing procedures. As of April 30,
2011, the IRS received 130.7 million individual income tax
returns. One of the challenges the IRS confronts each year         The IRS received 130.7 million
                                                                     individual tax returns as of
in processing tax returns is the implementation of new tax
                                                                        April 30, 2011. Three
law changes. Before the filing season begins, the IRS must          significant tax laws affected
identify new tax law and administrative changes and, when              the 2011 Filing Season.
necessary, revise the various tax forms, instructions, and
publications. It must also reprogram its computer systems
to ensure tax returns are accurately processed. Problems with tax return processing could delay
refunds, affect the accuracy of accounts, and generate incorrect notices. Along with the usual
required updates,2 three significant tax laws affected the 2011 Filing Season:
    •    Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 20103
         – Enacted on December 17, 2010, this law extended a number of tax deductions and
         credits, including the Earned Income Tax Credit and the American Opportunity Tax
         Credit. This new law required the IRS to reprogram its computer systems to
         accommodate three provisions extended by this law: 1) State and local sales tax
         deduction, 2) higher education tuition and fees deduction, and 3) educator expenses
         deduction. As a result, taxpayers who claimed one or more of these three deductions or
         who itemized deductions on their U.S. Individual Income Tax Return (Form 1040),
         Itemized Deductions (Schedule A), were unable to file their tax returns until
         February 14, 2011. Based on historical filing patterns, the IRS anticipated the filing
         delay would affect approximately 9 million taxpayers; however, only approximately
         6.6 million taxpayers were affected as of February 14, 2011.
    •    Housing and Economic Recovery Act of 20084 – Enacted on July 30, 2008, this law
         includes a provision that requires taxpayers who purchased a home between April 9 and
         December 31, 2008, and claimed the First-Time Homebuyer Credit (Homebuyer Credit)
         to begin repaying the credit on their Tax Year (TY) 2010 tax return. The credit is


1
  See Appendix VI for a glossary of terms.
2
  Each year, the tax products must be updated to reflect current tax rates, exemption amounts, and cost of living
adjustments as show in Revenue Procedures.
3
  Pub. L. No. 111-312 124 Stat. 3296 (2010).
4
  Pub. L. No. 110-289 122 Stat. 2654 (2008).
                                                                                                              Page 1
                                     The Passage of Late Legislation and
                              Incorrect Computer Programming Delayed Refunds
                              for Some Individuals During the 2011 Filing Season



          intended to be repaid over 15 years, in equal annual installments. More than 1.5 million
          taxpayers were required to begin repaying the credit on their TY 2010 tax returns.
    •     The Patient Protection and Affordable Care Act (Affordable Care Act)5 – Enacted on
          March 23, 2010, this law included a provision that increased the Adoption Credit from
          $12,150 to $13,170 and made the tax credit refundable.6
         Figure 1: Summarization of Repayments and Claims for the First-Time
        Homebuyer Credit and Claims for the Adoption Credit as of April 30, 2011
                                                   Tax Returns With These             Amount Repaid/Claimed
                                                  Credits as of April 30, 2011          as of April 30, 2011

        First-Time Homebuyer Credit
          • Taxpayers Reporting Homebuyer                       792,554                  $378 million repaid
            Credit Installment Repayments
          • Taxpayers Filing New Claims for                     271,390                  $1.9 billion claimed
            the Homebuyer Credit

        Adoption Credit                                          72,330                 $895 million claimed

     Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of 2011 Filing Season tax
     return volumes through April 30, 2011.

During the 2011 Filing Season, the IRS processed individual income tax returns at four Wage
and Investment Division Submission Processing sites.7 All four sites processed paper individual
income tax returns, and all but the Atlanta, Georgia, Submission Processing Site also processed
electronically filed (e-filed) individual income tax returns. Andover, Massachusetts, and
Philadelphia, Pennsylvania, also processed e-filed individual income tax returns.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Submission Processing function offices in Lanham, Maryland; and the
Austin Submission Processing Site in Austin, Texas, during the period December 2010 through
June 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.


5
  Pub. L. No. 111-148 124 Stat. 119 (2010).
6
  A refundable tax credit is a tax credit that is treated as a payment and can be refunded to the taxpayer. Refundable
credits can create a Federal tax refund that is larger than the amount a person actually paid in taxes during the year.
7
  Submission Processing sites in Fresno, California; Atlanta, Georgia; Kansas City, Missouri; and Austin, Texas.
                                                                                                                Page 2
                                    The Passage of Late Legislation and
                             Incorrect Computer Programming Delayed Refunds
                             for Some Individuals During the 2011 Filing Season




                                       Results of Review

The Majority of Individual Income Tax Returns Were Timely
Processed; However, Late Legislation Caused a Delay in Processing
Some Tax Returns
The IRS timely processed the majority of individual income tax returns during the 2011 Filing
Season and issued associated tax refunds within the required 45 calendar days of the
                                        April 18, 2011, due date. The majority of taxpayers could
                                        begin filing their TY 2010 tax returns on January 14, 2011.
    Programming to implement            However, because of the late passage of the Tax Relief,
      late legislation required         Unemployment Insurance Reauthorization, and Job
  Electronic Return Originators         Creation Act of 2010 (enacted December 17, 2010),
       to hold approximately
    6.5 million e-file tax returns      taxpayers claiming certain deductions or itemizing
        to be transmitted on            deductions (see page 1) had to wait until February 14, 2011,
         February 14, 2011.             to file their individual tax returns. The delay affected both
                                        taxpayers who e-filed and paper filed. The IRS reported it
                                        had Electronic Return Originators hold approximately
6.5 million e-file tax returns for transmission until February 14, 2011. In addition, as of
February 11, 2011, the IRS had received and held for processing approximately 100,000 paper
tax returns.
As of April 30, 2011, the IRS received nearly 130.7 million tax returns. Of those, 105 million
(80 percent) were e-filed and nearly 25.8 million (20 percent) were filed on paper (a decrease of
28.1 percent in paper-filed returns from this time last year).8 In addition, nearly 98.2 million tax
refunds totaling approximately $277.1 billion were issued. Figure 2 presents a summary of tax
return filing statistics as of April 30, 2011.




8
 The IRS anticipated receiving fewer tax returns early in the filing season due to some tax returns being held for
processing until February 14, 2011.
                                                                                                             Page 3
                                      The Passage of Late Legislation and
                               Incorrect Computer Programming Delayed Refunds
                               for Some Individuals During the 2011 Filing Season



             Figure 2: Comparative Filing Season Statistics as of April 30, 2011

                                                                    2010               2011                %
    Cumulative Filing Season Data
                                                                   Actual             Actual             Change
    Individual Income Tax Returns
    Total Returns Received (in thousands)                           129,268            130,706              1.1%
        Paper Returns Received (in thousands)                        35,807              25,756           -28.1%
        E-Filed Returns Received (in thousands)                      93,460            104,951            12.3%
          Practitioner Prepared                                      59,784              67,082           12.2%
          Home Computer                                              33,677              37,854           12.4%
          Free File (also included in Home Computer total)            3,119               3,054            -2.1%
          Fillable Forms (also included in Home Computer total)          282                410           45.5%
    Refunds
     Total Number Issued (in thousands)                              96,292              98,213             2.0%
     Total $ (in millions)                                        $277,983            $277,149             -0.3%
     Average $                                                       $2,887              $2,822            -2.3%
     Total Number of Direct Deposits (in thousands)                  70,332              74,653             6.1%
     Total Direct Deposit $ (in millions)                         $220,044            $227,211              3.3%
Source: IRS 2011 Weekly Filing Season Reports. Totals and percentages may not compute to those presented due
to rounding.

The e-filing rate and use of fillable forms is higher; however, use of the Free File
Program continues to decrease
This year marks the 21st year of e-filing, with the IRS approaching a major milestone of
one billion e-filed tax returns processed since implementation. As of April 30, 2011, e-file
volumes were 12.3 percent higher than the volumes for the same period in 2010. The e-file
volumes increase in Calendar Year 2011 was partially due to the preparer mandate.9 The largest
increase over last year (12.4 percent) is from taxpayers e-filing their tax returns from home
computers, which includes Free File and fillable forms.
For the third year, the IRS and its private-sector tax software partners are offering Free File
Fillable Tax Forms, which opens up the Free File Program to nearly everyone, with no income

9
  Pub. L. No. 111-92 123 Stat. 2984 (2009). This law requires paid preparers who expect to file more than
10 individual tax returns to file electronically in Calendar Year 2011. The IRS is phasing this requirement in
through Calendar Year 2012.
                                                                                                             Page 4
                               The Passage of Late Legislation and
                        Incorrect Computer Programming Delayed Refunds
                        for Some Individuals During the 2011 Filing Season



limitations. In comparison to the 2010 Filing Season, more taxpayers are taking advantage of
this filing option. Approximately 410,000 taxpayers used Fillable Forms, which is an increase of
45.5 percent over the same period in 2010. However, participation in the traditional Free File
Program has decreased by 2.1 percent compared to the same period in 2010. The traditional IRS
Free File Program is a free Federal online tax preparation and e-filing program for eligible
taxpayers developed through a partnership between the IRS and the Free File Alliance LLC
(a group of private-sector tax preparation companies). The program enables eligible taxpayers to
use commercial tax software for free, accessible only through the IRS’s web site, IRS.gov.

The IRS continues to transition the e-filing of individual tax returns to the
Modernized e-File (MeF) system
The IRS continues the transition from its existing e-filing platform, the Legacy e-File system, to
a modernized, Internet-based system, the MeF system. The MeF system provides real-time
processing of tax returns and extensions that will improve error detection, standardize business
rules, and expedite acknowledgments for the electronic receipt of tax returns. The IRS first
deployed the MeF system for individual tax returns during the 2010 Filing Season. The first
phase of the MeF system for individual income tax returns included the Form 1040, Application
for Automatic Extension of Time to File U.S. Individual Income Tax Return (Form 4868), and
21 forms and schedules related to the Form 1040 for TY 2009. For the 2010 Filing Season, the
MeF system successfully accepted 816,012 individual tax returns for processing.
For the 2011 Filing Season, the MeF system did not provide for the filing of any additional tax
forms or schedules. The primary difference between the 2010 and 2011 Filing Season releases
is the ability for individual taxpayers to file prior year tax returns. Beginning with the
2011 Filing Season, the MeF system will be able to accept both TY 2009 and TY 2010 tax
returns. Appendix V details specific tax forms and schedules that are accepted by the MeF
system for individual filers. The number of individual tax returns transmitted through the MeF
system as of April 30, 2011, (9.2 million) is significantly lower than the 35 million individual
tax returns the IRS anticipated for the 2011 Filing Season. We have a separate review to
evaluate the IRS’s continued efforts to transition individual tax return e-filing to the MeF
system. The overall objective of that review is to evaluate the continued implementation of the
MeF system to determine whether individual income tax returns will be accurately and timely
processed and whether sufficient progress is being made to replace the Legacy e-File system.
As such, we are not including specific recommendations in this audit report.

More erroneous refunds are being detected and stopped
Unscrupulous taxpayers continue to submit tax returns with false income documents to the IRS
for the sole purpose of receiving a fraudulent tax refund from the Government. As of
April 30, 2011, the IRS reported that it had identified 775,723 tax returns with more than



                                                                                            Page 5
                                    The Passage of Late Legislation and
                             Incorrect Computer Programming Delayed Refunds
                             for Some Individuals During the 2011 Filing Season



$4.6 billion claimed in fraudulent tax refunds and prevented the issuance of more than
$4.4 billion (96 percent) of the refunds.10 This represents a 171 percent increase in the number of
fraudulent tax returns identified as of this period last filing season (286,670). Figure 3 shows the
number of fraudulent tax returns identified by the IRS for Processing Years 2008 through 2010,
as well as the tax refund amounts that were identified and stopped.
                       Figure 3: Fraudulent Tax Returns and Refunds
                   Identified and Stopped in Processing Years 2008–2010

                      Number of                 Number of                 Amount of
                  Fraudulent Refund         Fraudulent Refund             Fraudulent              Amount of
 Processing          Tax Returns               Tax Returns                  Refunds               Fraudulent
    Year              Identified                 Stopped                   Identified          Refunds Stopped

     2008                380,656                   306,128              $1,959,992,377            $1,683,912,973

     2009                457,369                   369,257              $2,988,945,590            $2,517,094,116

     2010                971,511                   881,303              $7,300,996,194            $6,931,931,314
Source: IRS fraudulent tax return statistics for Processing Years 2008–2010.

In addition, the screening of prisoner tax returns has increased significantly. In a prior TIGTA
review assessing the IRS fraudulent tax return screening process,11 we reported that the majority
of tax returns identified as being filed by prisoners are not sent to a tax examiner for screening to
assess the potential that the tax return is fraudulent. As of April 30, 2011, the IRS reported that it
had selected 199,854 tax returns filed by prisoners for screening. This represents a 256 percent
increase in the number of prisoner tax returns identified and sent to screening when compared
with the same period last processing year. Figure 4 shows a comparison of the number of tax
returns filed by prisoners that were sent to a tax examiner for screening as of the end of April for
Processing Years 2010 and 2011.




10
   The IRS could not prevent the issuance of all fraudulent tax refunds identified since some fraudulent tax returns
were subsequently identified as part of a tax refund scheme after they had been processed and the refund had been
released.
11
   Expanded Access to Wage and Withholding Information Can Improve Identification of Fraudulent Tax Returns
(Reference Number 2010-40-129, dated September 30, 2010).
                                                                                                              Page 6
                                The Passage of Late Legislation and
                         Incorrect Computer Programming Delayed Refunds
                         for Some Individuals During the 2011 Filing Season



                Figure 4: Prisoner Tax Returns Identified for Screening
                in Filing Seasons 2010 and 2011 (as of the end of April)

                                      Number of Prisoner
                 Processing          Tax Returns Identified          Prisoner Tax Return
                    Year                 for Screening               Percentage Change

                     2010                        56,101

                      2011                      199,854                        256%
              Source: IRS fraudulent return statistics for Processing Years 2010 and 2011 as of
              the end of April.

Not many taxpayers elected to participate in a new pilot which provides the
option to receive tax refunds on a prepaid debit card
The Department of the Treasury launched a pilot program this tax season offering taxpayers a
safe, convenient, and low-cost financial account for the electronic delivery of Federal tax
refunds. The new account option has the potential to streamline the tax administration process.
For the pilot, the Department of the Treasury mailed letters to 808,000 taxpayers nationwide who
are likely to have low or moderate income. The letters contained different offers inviting these
taxpayers to consider activating a MyAccountCard Visa® Prepaid Debit Card in time to have
their TY 2010 Federal tax refund direct deposited to the card. The MyAccountCard is a
reloadable, prepaid Visa debit card that is accepted everywhere Visa debit is accepted.
The letters mailed to taxpayers about the MyAccountCard contain information about the card’s
features, including free services and the fee structure for optional services. The information also
explains how to sign up and how to use the card to receive a Federal tax refund and conduct
everyday financial transactions. As part of the pilot, the Department of the Treasury randomly
offered 8 different variations of the MyAccountCard to 101,000 taxpayers each in order to
evaluate which product features, fee structures, and marketing messages generate the greatest
positive response from taxpayers. The results of the pilot will help determine the benefits and
feasibility of a card account as an integrated part of the tax filing and refund process.
As of April 30, 2011, 239 taxpayers took advantage of this option for tax refunds totaling more
than $638,000. The response rate appears to be lower than the average direct mail offer rates;
however, this program is new for taxpayers and was intentionally not publicized in order not to
bias the offer test. In addition, a large percentage of the population has their tax returns prepared
by a tax return preparer, and any fee for these services cannot be paid for with the tax refund.

Taxpayers have increased their use of the savings bond and split refund option
Beginning in Calendar Year 2010, taxpayers had the ability to use their tax refunds to purchase
United States Series I Savings Bonds by requesting them on their tax returns. Taxpayers may
request any portion of their refund that is an exact multiple of $50 and less than $5,000 be used
                                                                                                  Page 7
                               The Passage of Late Legislation and
                        Incorrect Computer Programming Delayed Refunds
                        for Some Individuals During the 2011 Filing Season



to purchase up to 3 savings bonds for themselves or other persons by simply filling out the
Allocation of Refund (Including Savings Bond Purchases) (Form 8888). As of April 30, 2011,
30,263 taxpayers requested savings bond tax refunds totaling more than $10.8 million. This
represents a 26 percent increase over the number of taxpayers electing to convert their tax
refunds to savings bonds during the same period last filing season.
Taxpayers can also elect to have Federal income tax refunds split and electronically deposited in
up to three accounts (checking, savings, or Individual Retirement Arrangement) and up to three
different United States financial institutions, including banks, brokerage firms, or credit unions.
Form 8888 must be prepared for this option. As of April 30, 2011, 757,561 taxpayers requested
split tax refunds totaling more than $3.2 billion between 2 or 3 different checking and savings
accounts. The number of taxpayers requesting the split refund option increased 36 percent over
the same period in 2010, and the amount of refunds requested increased by almost 35 percent.

Implementing New Laws
Implementing new laws for the 2011 Filing Season required the IRS to update many tax products
and perform extensive computer programming in an effort to ensure tax returns would be
processed accurately. We selected 25 tax products to review (13 tax forms, 5 instructions, and
7 publications) that required updating due to new laws. Our review determined that the 25 tax
products were updated clearly and accurately in accordance with the new tax law provisions.
Furthermore, of the significant new or expanded credits/deductions we reviewed, the IRS took
actions to minimize taxpayer burden and to reduce the risk of improper claims. For example:
   •   The IRS developed processes and procedures to assist taxpayers with Homebuyer Credit
       repayment requirements. For example, the IRS developed and issued Homebuyer Credit
       notices. These notices provide key information as to the repayment requirement, the
       amount that has to be repaid, etc.
   •   The IRS recognized that the provision in the law which made the Adoption Credit
       refundable could increase the risk of erroneous claims, and it developed a strategy to
       address these risks. This strategy includes the issuance of guidance on
       September 29, 2010, requiring taxpayers to complete a Qualified Adoption Expenses
       (Form 8839) and include one or more adoption-related documents with their TY 2010 tax
       return supporting the legitimacy of the claim. Because specific documentation had to be
       attached to the tax return, taxpayers claiming the Adoption Credit had to file paper tax
       returns. In addition, the IRS corrrectly developed computer programming to ensure that:
           o Taxpayers were not allowed to claim more than the maximum $13,170 in
             Adoption Credit expenses for each individual child for TY 2010.
           o Taxpayers were not allowed to claim the credit or the credit was reduced if their
             modified adjusted gross income exceeds a certain level.

                                                                                             Page 8
                                  The Passage of Late Legislation and
                           Incorrect Computer Programming Delayed Refunds
                           for Some Individuals During the 2011 Filing Season



             o Tax returns with an Adoption Credit claim were sent to the Examination function
               and the Adoption Credit portion of the refund was frozen when IRS records
               indicated that the individual was deceased, the adoptee was deceased, or the
               adopted child was older than the individual (if the child was not disabled).
The IRS also addressed issues we reported related to whether it timely and accurately processed
individual paper and e-file tax returns during the 2010 Filing Season.12 These included:
     •   Preventing taxpayers from receiving more than the maximum allowable amount for the
         Nonbusiness Energy Property Credit based on their filing status and multiple residence
         indicators for TY 2010.
     •   Identifying taxpayers claiming excessive Qualified Motor Vehicle (QMV) deductions on
         Schedule A. The IRS implemented controls to identify and freeze the portion of the tax
         refund relating to the QMV for taxpayers claiming a QMV deduction in excess of a
         specific dollar amount. Once the freeze is applied, the tax return is sent to a tax examiner
         to determine if the QMV deduction is legimitate.
However, our review found that implementing late legislation and some legislative provisions
presented challenges for the IRS. These challenges resulted in delays in completing computer
programming, delays in the ability of taxpayers to file tax returns with certain deductions, and
the inability to identify and prevent some erroneous claims at the time tax returns are processed.

Implementing Homebuyer Credit Provisions Continues to Present
Challenges for the Internal Revenue Service
We reported in our 2010 Filing Season report that erroneous Homebuyer Credits were claimed
by taxpayers with ineligible home purchase dates. As of May 28, 2010, we had identified
10,581 taxpayers claiming $65.6 million in Homebuyer Credits that appeared to be erroneous.
During this review, we identified an additional 4,417 taxpayers who filed tax returns during the
period May 30 through December 25, 2010, who were allowed $27.8 million in erroneous
Homebuyer Credits.
     •   2,812 taxpayers were allowed $16.4 million in erroneous Homebuyer Credits as a
         long-time resident with a purchase date prior to November 7, 2009. To qualify for this
         Credit, the law specifies that taxpayers must complete the purchase of the new home after
         November 6, 2009.
     •   1,605 taxpayers were allowed $11.4 million in erroneous Homebuyer Credits with a
         home purchase date subsequent to the filing date of the tax return. To qualify for the


12
 Verifying Eligibility for Certain New Tax Benefits Was a Challenge for the 2010 Filing Season (Reference
Number 2010-41-128, dated September 30, 2010).
                                                                                                            Page 9
                              The Passage of Late Legislation and
                       Incorrect Computer Programming Delayed Refunds
                       for Some Individuals During the 2011 Filing Season



       Homebuyer Credit, taxpayers must complete the purchase of the new home before
       claiming the credit.
We alerted the IRS on February 23, 2011, of our concerns regarding the allowance of erroneous
Homebuyer Credits based on ineligible purchase dates. In response, the IRS agreed to use
third-party property records by July 2011 to verify whether the taxpayers we identified were
entitled to the credit and to continue identifying erroneous claims based on ineligible purchase
dates.
In addition, the IRS experienced difficulties in implementing its Homebuyer Credit repayment
process. As of April 30, 2011, we identified 26,649 taxpayers for whom their Homebuyer Credit
was inaccurately processed, which resulted in the IRS not assessing more than $5.8 million in
repayment amounts owed but not paid and $675,063 erroneously assessed as a repayment
amount in excess of what was owed by the taxpayer. These difficulties resulted in:
   •   Significant delays in providing refunds to taxpayers with repayment requirements.
   •   Inaccurate processing of repayments, including erroneously refunding repayments back
       to taxpayers and not properly assessing repayment amounts owed but not paid.
   •   Crediting taxpayers for more than the actual amount repaid and erroneously assessing
       higher amounts than required to be repaid.

Taxpayers with repayment requirements experienced significant refund delays
Refunds for some taxpayers with Homebuyer Credit repayment requirements were delayed up to
4 months or more because of programming issues. As early as March 23, 2011, the IRS reported
that programming issues were affecting a small percentage of taxpayers with Homebuyer Credit
repayment requirements. The IRS announced that it had assigned additional staff and resources
to address the issues promptly. These programming issues primarily affected:
   •   Taxpayers who filed as married filing jointly and received the Homebuyer Credit on a
       2008 home purchase.
   •   Taxpayers who received the Homebuyer Credit and
       sent in payments for more than the amount that was       Due to programming errors,
                                                                 refunds were delayed for
       required.                                                   some taxpayers with
   •   Taxpayers who received the Homebuyer Credit and              Homebuyer Credit
                                                                 repayment requirements.
       were reporting the sale or disposition of their
       principle residence.
On May 20, 2011, the IRS announced that, while several programming issues had been resolved,
it was still encountering issues such as mismatches related to the names or Social Security
Numbers (SSN) on either the TY 2008 or the TY 2010 tax return and problems with a repayment
amount that did not match the expected repayment amount for some taxpayers. The IRS
                                                                                         Page 10
                                  The Passage of Late Legislation and
                           Incorrect Computer Programming Delayed Refunds
                           for Some Individuals During the 2011 Filing Season



reported that as of May 23, 2011, there were approximately 9,000 taxpayers whose tax returns
were still being held as unresolved. However, the IRS was unable to provide a definitive number
of taxpayers who were affected by programming errors.
In our review of the repayment of Homebuyer Credits,13 we identified concerns related to the
processing of Homebuyer Credits. ************************2(f)*******************
***************************************2(f)************************************
***************************************2(f)************************************
***************************************2(f)*********************************.
The IRS’s current practice is to associate Homebuyer Credit Entity information for a primary and
secondary taxpayer under the primary taxpayer’s SSN, instead of separating each taxpayer’s
Homebuyer Credit information under his or her own SSN. The Entity Section contains
Homebuyer Credit data for the primary and secondary taxpayer (for married taxpayers filing
jointly), including the amount of the credit received and the year in which the home was
purchased. The Homebuyer Credit Entity Section will also show the cumulative amount of the
credit that has been repaid.
We notified the IRS of our concerns on October 29, 2010. We recommended the IRS modify its
computer programming so the Homebuyer Credit information is reflected under the SSN of each
taxpayer that received the Homebuyer Credit. The IRS did not agree with this recommendation.
This decision contributed to some of the problems that are delaying refunds to taxpayers.

Some Homebuyer Credit repayments were inaccurately processed
Programming errors caused inaccurate processing of some Homebuyer Credit repayments. As of
April 30, 2011, we identified 17,857 taxpayers whose Homebuyer Credit repayments were
erroneously refunded back to them or whose repayment amounts owed were not properly
assessed. The total amount either refunded erroneously or not assessed was more than
$4.4 million.
     •   1,901 taxpayers who reported either the required repayment amount or more than the
         required repayment amount had $839,130 of the repayments erroneously refunded.
     •   15,956 taxpayers who reported repayment amounts less than the required repayment
         amount were not properly assessed nearly $3.6 million in additional taxes.
The IRS developed a process to identify taxpayers who do not report the required Homebuyer
Credit installment repayment amount as an additional tax on their tax return. The IRS
established an amount field14 on its computer systems, which is the amount the IRS expects the

13
   First-Time Homebuyer Credit Repayment Notices Were Incorrect, and the Method Used to Identify Dispositions
Is Unreliable (Reference Number 2011-41-097, dated September 15, 2011).
14
   The IRS calculates this amount based on 1/15th of the First-Time Homebuyer Credit amount received by the
taxpayer.
                                                                                                      Page 11
                               The Passage of Late Legislation and
                        Incorrect Computer Programming Delayed Refunds
                        for Some Individuals During the 2011 Filing Season



taxpayer to report on the First-Time Homebuyer Credit and Repayment of the Credit
(Form 5405). When tax returns are filed, the IRS matches the amount reported as an additional
tax on the tax return to the expected amount. If a discrepancy exists, the tax return is sent to the
IRS’s Error Resolution System function for resolution.
However, early in the 2011 Filing Season, we identified that the field in the IRS’s database with
the repayment amount expected did not contain an amount for most taxpayers (approximately
80 percent) with a repayment requirement whose tax returns were processed during the period
January 22 through February 5, 2011. We alerted the IRS on February 16, 2011, and the IRS
responded that the programming was being revised. However, we continued to identify these
issues and notified the IRS again in May and June 2011.

Taxpayers were credited for Homebuyer Credit repayment amounts more than
what was repaid or were erroneously assessed more than what was required to
be repaid
On March 23, 2011, the IRS announced that it had to delay tax refunds to taxpayers who
received the Homebuyer Credit for a 2008 home purchase and had a filing status of married
filing jointly. Joint filers who claimed the credit are responsible separately for half of the
repayment of the credit. The IRS stated that this delay resulted from having to manually split the
repayment amount between the two taxpayers listed on the joint tax return. These taxpayers
submitted a Form 5405 with their return. Computer programming incorrectly verified the total
amount of the repayment for each taxpayer rather than what the joint couple owed together. If
the repayment amount was at least equal to the required joint repayment amount, then the
programming would credit only the primary taxpayer for the repayment. The secondary
taxpayer’s account would incorrectly reflect that a repayment was owed because the repayment
was not split and instead was credited to only the primary account. As of April 30, 2011, we
identified 8,792 taxpayers who were joint filers and received credit for an amount greater than
they repaid or were assessed an amount more than they were required to repay.
   •   6,027 taxpayers received payment credits totaling $1.4 million more than what they
       actually repaid. While adjusting the affected tax returns, tax examiners erroneously
       increased the amount repaid by 50 percent. The computer program did not correctly split
       repayment amounts between primary and secondary filers.
   •   2,765 taxpayers were erroneously assessed $675,063 more than what they were required
       to repay. While adjusting the affected tax returns, tax examiners erroneously assessed
       50 percent more than the taxpayers were required to repay.
On May 9, 2011, we alerted IRS to these conditions. We recommended that the IRS correct the
repayment amounts and ensure that programming changes are made to prevent tax examiners
from increasing the repayment installment amount without increasing the associated tax liability.
The IRS responded that it will correct the repayment amounts for the 8,792 taxpayers we

                                                                                             Page 12
                              The Passage of Late Legislation and
                       Incorrect Computer Programming Delayed Refunds
                       for Some Individuals During the 2011 Filing Season



identified. The IRS noted that it issued procedures to tax examiners for processing repayments
from joint taxpayers. However, the IRS also responded that the complexity of the Homebuyer
Credit and its recordkeeping preclude the recommended programming changes.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure the 4,417 taxpayers identified as claiming the Homebuyer Credit
for ineligible past purchase dates or future purchase dates are entitled to claim the credit.
       Management’s Response: IRS management agreed with this recommendation and is
       taking steps to correct the accounts of 4,417 taxpayers not entitled to the credit. The IRS
       implemented processes to identify other individuals who had also claimed the credit with
       a future purchase date or who had claimed the long-time resident credit prior to the
       implementation date of the provision.
Recommendation 2: Establish a Homebuyer Credit Entity Section for each taxpayer who
received the Homebuyer Credit rather than grouping information by primary and secondary SSN.
       Management’s Response: IRS management agreed with the intent of this
       recommendation. However, the IRS has determined that establishing a Homebuyer
       Credit Entity Section for each taxpayer who received the Homebuyer Credit, rather than
       grouping information by primary and secondary SSN, is not needed to address the issues
       identified in the audit report. The issues outlined in our report were not caused by the
       absence of First-Time Homebuyer Credit information in the Entity Section of taxpayer
       accounts.
       Office of Audit Comment: We disagree with the IRS’s response to this
       recommendation. The lack of a unique Homebuyer Credit Entity Section for each
       individual contributed to some of the problems that delayed refunds to taxpayers. We
       notified the IRS of our concerns on October 29, 2010, and recommended the IRS modify
       its computer programming so the Homebuyer Credit information is reflected under the
       SSN of each taxpayer who received the Homebuyer Credit, but the IRS did not take the
       recommended action. The lack of IRS action could result in continued problems with
       delays in refunds to some taxpayers.
Recommendation 3: Ensure that the required Homebuyer Credit installment repayment field
is accurately populated with the amount that must be repaid by each taxpayer.
       Management’s Response: IRS management agreed with this recommendation.
       Error Resolution System programming is in place to retrieve and retain the data to be
       displayed by the Error Resolution System, provided the data are available in the National
       Account Profile First-Time Homebuyer Credit database for the taxpayer filing the return.

                                                                                          Page 13
                              The Passage of Late Legislation and
                       Incorrect Computer Programming Delayed Refunds
                       for Some Individuals During the 2011 Filing Season



       A programming change to the National Account Profile data file, on April 16, 2011,
       corrected the problem.
Recommendation 4: Ensure that the tax accounts are corrected for the 17,857 taxpayers who
had their Homebuyer Credit repayment erroneously refunded or who owed repayment amounts
that were not paid and were not properly assessed.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS has revised programming and actions have been taken to recover Homebuyer Credit
       repayments erroneously refunded and repayment amounts that were not paid or not
       properly assessed.
Recommendation 5: Ensure that the tax accounts are corrected for the 8,792 taxpayers who
received an amount greater than they repaid or who were assessed an amount more than they
were required to repay.
       Management’s Response: IRS management agreed with this recommendation and
       has already completed the necessary actions to correct the accounts. Actions taken
       include adjusting the tax and issuing the appropriate notification to the 2,765 taxpayers
       whose tax was affected. The accounts of the remaining 6,027 taxpayers were adjusted to
       reflect appropriate repayment amounts. Final adjustments to the accounts were
       completed in late July 2011.
Recommendation 6: Ensure that programming changes are made to prevent tax examiners
from increasing the installment repayment amount without increasing the associated tax liability.
       Management’s Response: IRS management disagreed with this recommendation.
       Systemically preventing tax examiners from increasing the repayment installment amount
       is undesirable because taxpayers may pay more than the required amount. The IRS has
       issued procedures instructing tax examiners of the process to follow when joint filers
       each have to repay the First-Time Homebuyer Credit. A Servicewide Electronic
       Research Program alert (110446) was issued on June 15, 2011, to reinforce the correct
       procedures.
       Office of Audit Comment: We do not agree that the IRS’s issuance of an alert will
       ensure that tax examiners accurately allocate installment repayments. Our
       recommendation for a systemic process would identify situations in which tax examiners
       erroneously increase installment repayment amounts without increasing the associated
       tax liability. For example, it would identify if the IRS received a payment of $100 but
       the tax examiner erroneously allocated the payment as $150. Our recommendation was
       to ensure these types of errors are systemically identified.




                                                                                         Page 14
                                   The Passage of Late Legislation and
                            Incorrect Computer Programming Delayed Refunds
                            for Some Individuals During the 2011 Filing Season



Taxpayers Are Erroneously Receiving the Adoption Credit, and the
Authority to Address Adoption Credit Noncompliance Is Limited
Our analysis of Adoption Credit processing controls identified that although the IRS requires
taxpayers to attach documentation to their tax returns supporting Adoption Credit claims, it does
not have math error authority to deny the credits if documentation is not provided. As a result,
tax returns without required documentation must be sent to the Examination function, increasing
costs for the IRS and burden for the taxpayer. In addition, some taxpayers are erroneously
receiving the Adoption Credit. As of April 30, 2011, there were 736 taxpayers who erroneously
received more than $4 million in Adoption Credits. Figure 5 provides an analysis of the
erroneous Adoption Credit claims that were not sent to the Examination function.
              Figure 5: Erroneous Adoption Credit Claims as of April 30, 2011

                                                                                        Total Dollar Amount
                                                                  Number Not            of Erroneous Claims
     Type of Erroneous Claim           Number of Claims           Sent to Exam           Not Sent to Exam

 Inaccurate Unused Adoption
                                             11,925                     499                    $3,342,708
 Credit Amount Claimed15

 Claimed Over the Maximum
 Limit Per Child Over Multiple                   658                    237                      $694,309
 Years

      Total                                  12,583                     736                    $4,037,017
Source: TIGTA analysis of the Individual Return Transaction File and sample review of individual tax returns.

Some refunds were delayed and IRS additional resources were used because the
IRS did not have math error authority to reject claims with insufficient
documentation
As previously stated, the IRS does not have math error authority to deny the Adoption Credit at
the time tax returns are processed if required documentation is not provided. Without this
authority, the IRS must deny the credit using the examination process after initial processing of
the returns and related refunds.




15
   Prior to TY 2010, the Adoption Credit was a nonrefundable credit that was limited to the amount of the tax
liability on the tax return. Individuals were allowed to carry any unused amount forward for 5 years. An additional
600 of the 11,925 claims had inaccurate unused Adoption Credit claims but were excluded from being sent to the
Examination function because they did not meet IRS examination criteria.
                                                                                                          Page 15
                                  The Passage of Late Legislation and
                           Incorrect Computer Programming Delayed Refunds
                           for Some Individuals During the 2011 Filing Season



On October 29, 2010, we recommended that the IRS work with the Department of the Treasury
to seek legislation from Congress for math error authority. However, the IRS did not agree with
the recommendation and responded that it had developed and implemented sufficient filters and
compliance tools to handle potential Adoption Credit fraud. These filters and compliance tools
include identification of tax returns that do not meet specific requirements for claiming the
Adoption Credit. All tax returns that do not meet one or more of these requirements are sent to
the Examination function for review.
As of April 30, 2011, the IRS had received 72,330 individual tax returns claiming more than
$895 million in Adoption Credits. Of the 72,330 Adoption Credit claims, 41,591 (58 percent)
met IRS documentation criteria for sending the tax return to its Examination function. These
claims either had no required documentation attached to the tax return or the documentation was
invalid or insufficient.16
Math error processing to deny the claims without required documentation at the time the tax
return was processed would have been less burdensome on taxpayers than the post-processing
examinations. For example, taxpayers would have been notified of the denial of the Adoption
Credit during processing and informed that they could provide the IRS with the necessary
documentation in support of their eligibility. The IRS has a goal to resolve these responses
within 30 days of receipt of the information supporting the individual’s disagreement with the
adjustment.
The IRS was unable to provide an average time period for resolving Adoption Credit claims sent
for post-processing examinations. The IRS will not have this information until the end of the
fiscal year because of the limited number of cases closed to date. However, the IRS estimates
that after tax returns are identified as not meeting the documentation requirements and are
selected for examination, taxpayers should receive notification within 3 to 4 weeks. They have
30 days to respond to the IRS’s request for the required documentation. Once the IRS receives
the information, it does not have a specific time period within which to resolve the case.

Taxpayers erroneously claimed unused Adoption Credit amounts
Prior to TY 2010, the Adoption Credit was a nonrefundable credit that was limited to the amount
of the tax liability on the tax return. Taxpayers were allowed to carry any unused amount
forward for 5 years. Taxpayers were allowed to claim the Adoption Credit for qualified adoption
expenses plus any amounts carried forward from prior years up to a maximum limit of $12,150
for each child in TY 2009. Our review identified that taxpayers erroneously carried forward
Adoption Credit amounts. For example:



16
  We identified an additional 684 claims with no required documentation attached or with invalid or insufficient
documentation that were not sent to the Examination function. *****************2(f)**********************
*************2(F)*****.
                                                                                                       Page 16
                                      The Passage of Late Legislation and
                               Incorrect Computer Programming Delayed Refunds
                               for Some Individuals During the 2011 Filing Season



           For TY 2009, Taxpayer A had $10,000 in qualified adoption expenses, but his tax liability
           was only $5,000. Therefore, he claimed an Adoption Credit of $5,000, leaving $5,000 in
           unused Adoption Credit to be carried forward to the next year. Then, in TY 2010,
           Taxpayer A had $1,000 in new qualified adoption expenses. He claimed $1,000 in new
           expenses but claimed $6,000 in unused Adoption Credit carried forward from the
           previous year, for a TY 2010 Adoption Credit total of $7,000. Thus, Taxpayer A
           overstated the amount of unused Adoption Credit for which he was eligible. He should
           have claimed $1,000 in new expenses and $5,000 in unused Adoption Credit, for a
           TY 2010 Adoption Credit total of $6,000.17
As of April 30, 2011, we found that 11,925 tax returns overstated unused Adoption Credit claims
by $110.8 million. The IRS caught the majority of these overstated claims. However, we
identified 499 tax returns with overstated claims that the IRS did not identify and send to the
Examination function. As a result, these taxpayers received $3.3 million in erroneous Adoption
Credits.
We issued an Email Alert to the IRS on April 5, 2011, that some taxpayers who overstated their
unused Adoption Credit claims had not been selected for audit. We recommended that the IRS
implement procedures to send all tax returns with overstated Adoption Credit claims to the
Examination function and to freeze the refund. IRS management responded that they reviewed
the computer programming and found that it was not working as intended; the IRS implemented
programming corrections on April 12, 2011.

Taxpayers claimed Adoption Credits over the maximum limit per child for multiple
years
We analyzed individual tax returns claiming the Adoption Credit in TYs 2008 and 2009 and
identified 658 taxpayers who claimed Adoption Credits for the same child that exceed the
allowable amount. For example:
           Taxpayer A was allowed to claim the credit for qualified adoption expenses of up to
           $11,650 for TY 2008 and up to $12,150 for TY 2009 for the same child. In TY 2008,
           Taxpayer A received $11,650 for qualified adoption expenses for 1 child, plus $15,000
           carried forward from TY 2007. In TY 2009, Taxpayer A again received $12,150 for the
           same child, plus $20,000 carried forward from TY 2008. In total, Taxpayer A received
           $58,800 in Adoption Credit for the same child, when Taxpayer A was only entitled to a
           maximum of $12,150 for the child.18
These taxpayers erroneously received more than $2.2 million in Adoption Credits for
658 children. Although the IRS has a process to ensure taxpayers do not claim adoption


17
     This is an example of a hypothetical situation.
18
     This is an example of a hypothetical situation.
                                                                                            Page 17
                               The Passage of Late Legislation and
                        Incorrect Computer Programming Delayed Refunds
                        for Some Individuals During the 2011 Filing Season



expenses in excess of the allowed amount in any one tax year, the taxpayers were not limited in
the amount of unused Adoption Credit claimed from a prior year. In addition, prior to this filing
season, the IRS did not have a process to ensure taxpayers do not claim in excess of the allowed
amount when claiming the same child over multiple tax years.
We issued an Email Alert to the IRS on February 17, 2011, and recommended that the IRS
develop a process to prevent taxpayers from receiving more than the allowable maximum
amount of the Adoption Credit for each child when claiming the credit over multiple tax years.
The IRS responded that for the 2011 Filing Season, it has examination filters in place to address
taxpayers claiming more than the allowable amount after the first year of an Adoption Credit
claim. In December 2010, the IRS had identified 421 of the 658 taxpayers we identified. The
remaining 237 taxpayers who were not identified by the IRS had claims totaling more than
$694,000.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 7: Verify the claims on the 499 tax returns that claimed an incorrect
amount of unused Adoption Credit and were not sent to the Examination function to determine
what portion of the Adoption Credit was appropriate.
       Management’s Response: IRS management agreed with this recommendation and
       has included these cases in their Fiscal Year 2012 Examination plan. The IRS will
       review these returns and conduct examinations when warranted.
Recommendation 8: Verify the claims on the 237 tax returns that claimed over the maximum
limit over multiple years but were not selected for audit by the Examination function to
determine what portion of the Adoption Credit was appropriate.
       Management’s Response: IRS management agreed with this recommendation and
       has included these cases in their Fiscal Year 2012 Examination plan. The IRS will
       review these returns and conduct examinations when warranted.

Legislative Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 9: Work with the Department of the Treasury to seek math error authority
from Congress for Adoption Credit claims with insufficient documentation.
       Management’s Response: IRS management agreed with this recommendation and
       will discuss it with the Department of the Treasury, Office of Tax Policy.


                                                                                          Page 18
                                   The Passage of Late Legislation and
                            Incorrect Computer Programming Delayed Refunds
                            for Some Individuals During the 2011 Filing Season



Taxpayers Received Erroneous Nonbusiness Energy Property Credits
in Excess of the Maximum Amount Allowed
As of April 30, 2011, we have identified 111,710 taxpayers who erroneously claimed in excess
of $76.3 million in Nonbusiness Energy Property Credits. Processes were not developed to
ensure taxpayers did not claim more than the maximum allowed $1,500 for the credit for both
TY 2009 and TY 2010. In addition, we identified 94 taxpayers filing as married who
erroneously claimed in excess of $111,000. These taxpayers were allowed to erroneously claim
more than the maximum allowed $3,000 for both TY 2009 and TY 2010.
The American Recovery and Reinvestment Act (Recovery Act)19 modified the provision for the
Nonbusiness Energy Property Credit. The modifications were to encourage the purchase of
energy efficient property for an individual’s principal residence that were designed to reduce
heat loss during cold months or heat gain during warm months. The Nonbusiness Energy
Property Credit allows taxpayers to take a credit of 30 percent of the costs paid or incurred in
Calendar Year 2010 for energy efficient products for their principal residence, with a maximum
of $1,500 (or $3,000 for married taxpayers filing jointly under certain circumstances).20
We alerted the IRS on February 23, 2011, of the above condition and recommended that the IRS
immediately develop a process to prevent taxpayers from receiving more than the allowable
maximum amount of the Nonbusiness Energy Property Credit. We also recommended the IRS
initiate a recovery program for the 111,689 taxpayers that we had identified as claiming more
than the allowable maximum amount of the credit as of that point in time. The IRS responded
that it had confirmed with Wage and Investment Division Chief Counsel that the IRS does not
have the requisite math error authority needed to deny Nonbusiness Energy Property Credits
claimed in excess of the $1,500 lifetime limitation provided by Internal Revenue Code
Section 25C. The IRS will test a sample of 500 cases from the total number of erroneous claims
we identified. The results will be analyzed to determine the volume of cases to be worked based
on business results and resource availability.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 10: Initiate a recovery program for the review of the 111,804 taxpayers
that we identified as claiming more than the 2-year maximum limit of the Nonbusiness Energy
Property Credit to recover the $76.4 million in erroneous credits refunded.



19
  Pub. L. 111-5, 123 Stat. 115 (2009).
20
  If a taxpayer and his or her spouse owned and lived apart in separate main homes, they may each qualify for
$1,500.
                                                                                                          Page 19
                                   The Passage of Late Legislation and
                            Incorrect Computer Programming Delayed Refunds
                            for Some Individuals During the 2011 Filing Season



         Management’s Response: IRS management agreed with this recommendation. As
         TIGTA notes in the report, the IRS does not have the legal authority to automatically
         adjust these returns with math error authority. Recovery of the credits must be
         accomplished by the use of deficiency procedures, which can be a resource-intensive
         process. The IRS will build upon the findings of the subset of these returns that have
         been identified for audit to develop a program that will leverage available resources to
         maximize recoveries of the credits claimed in excess of allowable limits.

Legislative Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 11: Work with the Department of the Treasury to seek math error
authority from Congress to prevent the overpayment of credits subject to lifetime limits spanning
multiple tax periods.
         Management’s Response: IRS management agreed with this recommendation and
         will discuss it with the Department of the Treasury, Office of Tax Policy.

Taxpayers Continue to Erroneously Claim Qualified Plug-in Electric
and Alternative Motor Vehicle Credits
The Recovery Act included a number of provisions that encourage the purchase of motor
vehicles (or the conversion of motor vehicles to those) that operate on clean renewable sources
of energy. In a prior review,21 we identified taxpayers claiming erroneous plug-in electric and
alternative motor vehicle credits. We recommended that the IRS develop a process to ensure
taxpayers are not erroneously claiming credits with nonqualifying vehicle makes and models.
The IRS agreed with this recommendation and noted that for the 2011 Filing Season, examiners
would be performing a review of the make and model of the vehicle claimed on each Qualified
Plug-in Electric Drive Motor Vehicle Credit (Form 8936) and disallow any clearly nonqualifying
motor vehicles.
However, we continue to identify taxpayers using nonqualifying vehicles to erroneously claim
plug-in electric vehicle credits. As of April 30, 2011, we identified 23,639 taxpayers erroneously
claiming $32 million in plug-in electric and alternative motor vehicle credits.22 This includes:
     •   723 taxpayers erroneously claimed more than $2 million on Forms 8936 for
         nonqualifying vehicles. These erroneous claims accounted for 83 percent of all claims on
         Forms 8936.

21
   Individuals Received Millions of Dollars in Erroneous Plug-in Electric and Alternative Motor Vehicle Credits,
(Reference Number 2011-41-011, dated January 21, 2011).
22
   All of the volumes reported on are e-filed tax returns.
                                                                                                          Page 20
                              The Passage of Late Legislation and
                       Incorrect Computer Programming Delayed Refunds
                       for Some Individuals During the 2011 Filing Season



   •   21,353 taxpayers erroneously claimed nearly $27.7 million on an Alternative Motor
       Vehicle Credit (Form 8910) for nonqualifying vehicles. These erroneous claims
       accounted for 52 percent of all claims on Form 8910.
   •   1,563 taxpayers erroneously claimed more than $2.2 million on a Qualified Plug-in
       Electric and Electric Vehicle Credit (Form 8834) for nonqualifying vehicles. These
       erroneous claims accounted for 78 percent of all claims on Form 8834.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 12: Initiate actions to recover the $32 million in plug-in electric and
alternative motor vehicle credits claimed by the 23,639 taxpayers the TIGTA identified as having
erroneously claimed these credits.
       Management’s Response: IRS management agreed with this recommendation and
       has taken steps to address the potential noncompliance in the taxpayer segment. The
       Director, Reporting Compliance, Wage and Investment Division, and the Director,
       Campus Reporting Compliance, Small Business/Self-Employed Division, have included
       a sample of these cases in the Fiscal Year 2012 Examination plan. The IRS will evaluate
       the results achieved through audits of the selected sample of returns and will adjust the
       plan accordingly to maximize the effective use of examination resources.

Legislative Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 13: Work with the Department of the Treasury to seek math error
authority from Congress to deny Qualified Plug-in Electric Drive Motor Vehicle Credits for
nonqualifying makes of motor vehicles.
       Management’s Response: IRS management agreed with this recommendation and
       will discuss it with the Department of the Treasury, Office of Tax Policy.

Taxpayers Appear to Be Erroneously Claiming Motor Vehicle
Deductions
The Recovery Act provides taxpayers with a QMV deduction, which is an additional deduction
for State sales tax and excise tax on the purchase of certain motor vehicles. For TY 2009 only,
taxpayers could deduct State sales tax and excise tax for qualified motor vehicle purchases made
after February 16, 2009, and before January 1, 2010. The expiration date for the QMV deduction
was December 31, 2009.

                                                                                        Page 21
                              The Passage of Late Legislation and
                       Incorrect Computer Programming Delayed Refunds
                       for Some Individuals During the 2011 Filing Season



As of April 30, 2011, there were 437,332 taxpayers who claimed more than $606.8 million in
QMV deductions on TY 2010 tax returns. In our opinion, the circumstances for which an
individual can claim a QMV deduction on a TY 2010 tax return are unusual. As such, there
should not be a large number of these claims. Specifically, for TY 2010, an individual may
claim the QMV deduction for a vehicle that was purchased in 2009, but State and local sales
taxes were paid after December 31, 2009. In other words, an individual purchased a new vehicle
in 2009 but did not pay sales or excise tax until 2010.
We alerted IRS management on February 23, 2011, of our concerns related to the high volume of
TY 2010 QMV deductions and the possibility that taxpayers were erroneously claiming this
deduction. The IRS indicated that its research group will perform additional analysis relating to
the 127,577 QMV deductions we had identified as of February 20, 2011, to determine the
validity of the QMV deductions claimed on Schedule A and Standard Deduction for Certain
Filers (Schedule L). The IRS responded on July 5, 2011, that its research group was unable to
determine the validity of these claims, but it will be performing examinations on 1,000 of these
tax returns.

States requiring sales tax be paid at the time of vehicle purchase may be an
indicator of taxpayers erroneously claiming Motor Vehicle deduction
**********************************2(f)*****************************************
**********************2(f)********************. Taxpayers do not have to provide any
third-party documentation to support that they actually purchased a qualified motor vehicle and,
if a qualified vehicle was purchased, the date the vehicle was purchased and the date and the
amount paid of sales and excise taxes. **************************2(f)****************
*****************************************2(f)***************************.
Many States require that sales tax be paid to the motor vehicle dealer at the time of purchase.
Claims from taxpayers in these States provide the IRS with information that could be used to
identify potentially erroneous QMV deductions. For example, California, Florida, Illinois, and
Texas are examples of four States that have this requirement. We identified 136,036 taxpayers
who reside in these States and claimed the QMV deduction in TY 2010. If the taxpayers who
reside in these States also purchased their vehicle in these States, they could have potentially
received more than $235 million in erroneous QMV deductions since they would not have paid
the sales tax in 2010 for a 2009 purchase made in these States. Figure 6 provides a breakdown of
four States where sales tax or excise tax is due at the time of purchase.




                                                                                         Page 22
                                  The Passage of Late Legislation and
                           Incorrect Computer Programming Delayed Refunds
                           for Some Individuals During the 2011 Filing Season



           Figure 6: Taxpayers Residing in States That Require Sales Tax
                to Be Paid at the Time of Purchase and Claiming the
           QMV Deduction in TY 2010 for Motor Vehicles Purchased in 2009

                                                          Total Qualified Motor
                                                          Vehicle Tax Deduction
           State              Number of Taxpayers                Claimed          Estimated Tax Impact

         California                     56,839                  $112,554,249           $11,255,425

          Florida                       26,360                   $40,865,822            $4,086,582

          Illinois                      18,872                   $29,612,446            $2,961,245

           Texas                        33,965                   $52,698,667            $5,269,867

       Total Claims                    136,036                  $235,731,184           $23,573,119
Source: TIGTA analysis of the IRS’s Individual Return Transaction File.

A prior review identified that processes did not ensure excessive deductions
were identified
We previously reported that the process to identify potentially erroneous QMV deductions was
not effective. The IRS failed to identify 4,257 taxpayers claiming an excessive (as defined by
the IRS) QMV deduction during tax return processing so it could hold and prevent the possible
issuance of erroneous tax refunds. These taxpayers claimed a total of more than $151.1 million
in QMV deductions. The TIGTA also identified 473 taxpayers for which information that the
IRS maintains identifies them as ineligible to claim about $1.02 million in QMV deductions they
were allowed. These taxpayers were in prison, deceased, or underage. Finally, the processes
that the IRS established to verify the QMV deductions claimed on 3,026 individual tax returns
the IRS identified as excessive are also resulting in the erroneous release of tax refunds. Our
testing identified that the IRS does not ensure tax examiners are taking the necessary steps to
verify the QMV deductions.
We monitored the IRS’s progress in verifying potentially erroneous QMV deductions claimed on
7,756 individual tax returns. Based on our analysis of tax records, an examination has not been
initiated on 2,506 (32 percent) of the 7,756 taxpayers’ tax returns. Assessments totaling more
than $3 million in tax were made for 2,034 taxpayers. Figure 7 shows a breakdown of our
analysis of the 7,756 individual tax returns identified in our prior review.




                                                                                               Page 23
                                     The Passage of Late Legislation and
                              Incorrect Computer Programming Delayed Refunds
                              for Some Individuals During the 2011 Filing Season



                    Figure 7: Taxpayers Indentified in a Prior TIGTA Review
                    and Referred to IRS for Verification of QMV Deductions

                                                                                                   Total
                                         Number With        Number With                            Dollar
                          Total          Examinations       Examination         Number With       Amount
 Category               Identified        Not Initiated      Indicators         Assessments      Assessed

 Excessive
                           4,257              2,073              2,184                  106       $142,689
 Claims

 Ineligible
                             473                337                136                      66          $023
 Taxpayers

 Refunds
                           3,026                  96             2,930                1,862      $3,038,966
 Released

 Total                     7,756              2,506              5,250                2,034      $3,181,655
Source: TIGTA analysis of the IRS’s Master File as of May 28, 2011.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 14: Require taxpayers who claimed a QMV deduction in TY 2010 to
provide documentation for proof of purchase of a qualified vehicle, including the date any State
sales or excise tax was paid.
           Management’s Response: IRS management agreed with this recommendation. The
           Director, Reporting Compliance, Wage and Investment, will work with the Director,
           Campus Reporting Compliance, Small Business/Self-Employed Division, to include a
           sample in the Fiscal Year 2012 Examination plan. Documentation will be requested as
           part of the examination. The results of these examinations will be used to determine if
           further examinations are warranted. The IRS will evaluate the results achieved through
           audits of the selected sample of returns and will adjust the plan accordingly to maximize
           the effective use of examination resources.




23
     Individual tax returns were examined and closed without change to the amount of tax.
                                                                                                       Page 24
                                   The Passage of Late Legislation and
                            Incorrect Computer Programming Delayed Refunds
                            for Some Individuals During the 2011 Filing Season



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate whether the IRS timely and accurately
processed individual paper and e-filed tax returns during the 2011 Filing Season.1 To accomplish
our objective, we:
I.      Identified new tax legislation and administrative changes for the 2011 Filing Season that
        would have the greatest potential effect on individual taxpayers.
        A. Reviewed tax forms, instructions, and publications to determine whether they were
           accurately updated with the changes.
        B. Reviewed tax return processing procedures and change documentation to determine
           whether adequate controls were included to accurately process the new tax provisions
           during tax return processing.
II.     Identified volumes of paper and e-filed tax returns received through April 30, 2011, from
        the IRS Weekly Filing Season reports that provide a year-to-date comparison of
        scheduled return receipts to actual return receipts. The reports also provide a comparison
        to 2010 receipts for the same time period.
III.    Determined whether the IRS correctly implemented new tax legislation that affected the
        processing of individual tax returns during the 2011 Filing Season. We used computer
        analysis of 100 percent of the TY 2010 individual income tax returns processed
        nationally on the Individual Return Transaction File between January 1 and
        April 30, 2011,2 to identify returns affected by recent tax legislation and determined if
        they were processed correctly. We electronically identified:
        A. First-Time Homebuyer Credit (Homebuyer Credit).
             1. Electronically identified 792,554 TY 2010 tax returns reporting installment
                payments of $367 million on First-Time Homebuyer Credit and Repayment of the
                Credit (Form 5405) and reviewed a sample of 30 tax returns to determine whether
                the installment payment was properly posted to the Individual Master File



1
 See Appendix VI for a glossary of terms.
2
 To assess the reliability of computer-processed data, programmers in the TIGTA Office of Information Services
validated the data that were extracted and we verified the data with appropriate documentation. Judgmental samples
were reviewed to ensure that the amounts presented were supported by external sources. As appropriate, data were
compared to the physical tax returns to verify that the amounts were supported.
                                                                                                         Page 25
                       The Passage of Late Legislation and
                Incorrect Computer Programming Delayed Refunds
                for Some Individuals During the 2011 Filing Season



       account. We performed computer analysis on the 792,554 TY 2010 tax returns to
       determine if tax returns were processed correctly.
   2. Electronically identified 32,091 TY 2010 tax returns for taxpayer who received
      the Homebuyer Credit for homes purchased in 2008 but did not report an
      installment payment on Form 5405. We reviewed a random sample of 30 tax
      returns to determine whether additional tax was assessed for the unreported
      installment payment. We performed computer analysis on the 32,091 TY 2010
      tax returns to determine whether they were processed correctly.
   3. Electronically identified 271,390 TY 2010 tax returns claiming nearly $1.9 billion
      in Homebuyer Credits on Form 5405.
B. Expansion of the Adoption Credit.
   1. Identified 72,330 taxpayers claiming $895,031,504 in Adoption Credits on
      Qualified Adoption Expenses (Form 8839) and U.S. Individual Income Tax
      Returns (Form 1040), Line 71b. We performed computer analysis to evaluate
      these individual tax returns to determine whether they were properly processed.
   2. Determined whether individual tax returns were processed correctly and taxpayers
      were not allowed to claim over the TY 2010 $13,170 Adoption Credit limit, the
      Adoption Credit was properly reduced when modified adjusted gross income was
      within the phase-out range, and the Adoption Credit was not allowed when
      modified adjusted gross income was above the phase-out range.
   3. Determined whether refunds were correctly frozen and taxpayer notices were
      properly issued. We identified 42,309 tax returns meeting criteria to have the
      Adoption Credit portion of the refund frozen and the tax return sent to the
      Examination function for further processing. We reviewed Individual Master File
      account information for the 42,309 taxpayers to determine whether refunds were
      frozen and tax returns were sent to the Examination function.
C. Electronically identified all TY 2009 tax returns that reported unused Adoption Credit
   amounts carried forward. We matched all TY 2010 tax returns claiming an amount
   carried forward to the related TY 2009 return and identified TY 2010 returns
   claiming unused Adoption Credits for which no unused Adoption Credit was reported
   in TY 2009. Also, we identified TY 2010 returns claiming unused Adoption Credit
   amounts that were overstated from TY 2009.
D. Nonbusiness Energy Property Credit.
   1. Identified and evaluated 5,293,296 tax returns claiming the Nonbusiness Energy
      Property Credit and determined whether the individual previously claimed the
      Nonbusiness Energy Property Credit in TY 2009.

                                                                                 Page 26
                                  The Passage of Late Legislation and
                           Incorrect Computer Programming Delayed Refunds
                           for Some Individuals During the 2011 Filing Season



            2. Matched all TY 2010 tax returns claiming Nonbusiness Energy Property Credits
               to tax returns claiming the credit in TY 2009 to identify taxpayers who claimed
               Nonbusiness Energy Property Credits over the statutory limit for TY 2009 and
               TY 2010.
        E. Qualified Plug-in Electric Drive Motor Vehicle Credit.
            1. Identified and evaluated 866 tax returns filing a Qualified Plug-in Electric Drive
               Motor Vehicle Credit (Form 8936) to determine whether the credit was claimed
               for: vehicles with nonqualifying years, placed-in-service dates, or makes and
               models; an excessive number of vehicles; or a vehicle for which other (multiple)
               claims were made.
IV.     Determined if the corrective actions implemented by the IRS in response to prior TIGTA
        reports3 accurately resolved problems that were identified and followed up on findings
        identified in those reports.
        A. Homebuyer Credit.
            1. Determined whether IRS management initiated corrective actions for tax returns
               claiming the Homebuyer Credit as a long-time resident for purchase dates prior to
               November 7, 2009.
                 a) Electronically identified 2,812 TY 2009 tax returns processed between
                    May 28 and December 31, 2010, that were allowed to erroneously claim the
                    Credit as a long-time resident for purchase dates prior to November 7, 2009.
                 b) Determined whether processes were established to identify errors on tax
                    returns for this condition and if the description in the notice sent to the
                    taxpayer accurately described the condition identified.
            2. Determined whether IRS management initiated corrective actions for tax returns
               claiming the Homebuyer Credit for a future home purchase.
                 a) Electronically identified 1,605 TY 2009 tax returns processed between
                    May 28 and December 31, 2010, that were allowed to erroneously claim the
                    Credit for a future purchase date.
                 b) Determined whether processes were established to identify errors on tax
                    returns for this condition and if the Taxpayer Notice Code description
                    accurately described the condition identified.


3
 Verifying Eligibility for Certain New Tax Benefits Was a Challenge for the 2010 Filing Season (Reference Number
2010-41-128, dated September 30, 2010), and Individuals Received Millions of Dollars in Erroneous Plug-in
Electric and Alternative Motor Vehicle Credits (Reference Number 2011-41-011, dated January 21, 2011).
                                                                                                       Page 27
                                     The Passage of Late Legislation and
                              Incorrect Computer Programming Delayed Refunds
                              for Some Individuals During the 2011 Filing Season



           B. Plug-in Electric Vehicle Credits and Alternative Motor Vehicle Credit.
               1. Determined whether IRS management initiated corrective actions to ensure that
                  the computer systems and tax return processing procedures were updated to
                  identify and disallow vehicles with nonqualifying years, placed-in-service dates,
                  or makes and models; excessive multiple vehicle claims; and multiple claims for
                  the same vehicle, including programming to reject e-filed returns with these
                  conditions.
               2. Determined whether IRS management initiated corrective actions to track and
                  account for vehicle credits claimed on Qualified Plug-in Electric and Electric
                  Vehicle Credit (Form 8834), Alternative Motor Vehicle Credit (Form 8910), and
                  Form 8936 for paper-filed tax returns.
               3. Identified and evaluated 2,001 tax returns with a Form 8834 to determine whether
                  the credit was claimed for: vehicles with nonqualifying years, placed-in-service
                  dates, or makes and models; an excessive number of vehicles; or a vehicle for
                  which other (multiple) claims were made.
           C. Identified and evaluated 41,085 tax returns with a Form 8910 to determine whether
              the credit was claimed for: vehicles with nonqualifying years, placed-in-service
              dates, or makes and models; an excessive number of vehicles; or a vehicle for which
              other (multiple) claims were made.
           D. Nonbusiness Energy Property Credit.
               1. Determined whether IRS management initiated corrective actions to ensure that
                  the computer systems and tax return processing procedures were updated to
                  identify individual claims exceeding the maximum allowable Nonbusiness Energy
                  Property Credit amount, including programming to reject e-filed tax returns with
                  this condition.
               2. Electronically analyzed tax returns claiming the Nonbusiness Energy Property
                  Credit to verify that the processes had been implemented to prevent claims
                  exceeding the maximum amount allowed.
           E. Qualified Motor Vehicle Tax Deduction.
               1. Determined whether IRS management effectively identified erroneous Qualified
                  Motor Vehicle Tax deductions claimed on Itemized Deductions (Schedule A)
                  (Form 1040) and Standard Deduction for Certain Filers (Schedule L) (Form 1040
                  or Form 1040-A4).



4
    Another version of the U.S. Individual Income Tax Return.
                                                                                             Page 28
                                    The Passage of Late Legislation and
                             Incorrect Computer Programming Delayed Refunds
                             for Some Individuals During the 2011 Filing Season



               2. Electronically identified 427,332 taxpayers claiming $606,823,690 in Qualified
                  Motor Vehicle Tax deductions on Schedules A or Schedules L for TY 2010.
V.         Identified the interim results for the Wage and Investment Division’s Accounts
           Management function fraudulent tax return statistics.
           A. Obtained the Questionable Refund Program Workload Comparison Summary Report
              as of April 30, 2011, to identify the interim IRS fraudulent tax return statistics for the
              2011 Filing Season.
           B. Obtained the Questionable Refund Program Workload Comparison Summary Report
              for Processing Year 2010 and reviewed a prior TIGTA report5 to obtain IRS
              fraudulent tax return statistics and determined the number of erroneous refunds
              identified and stopped for Processing Years 2008 through 2010.
VI.        Determined whether taxpayers were using the savings bond option for direct purchase of
           savings bonds from their refunds and whether taxpayers significantly increased their use
           of the split refund option by electronically identifying and counting the tax returns filed
           with Allocation of Refund (Including Savings Bond Purchases) (Form 8888).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls over information processing – we
reviewed the Work Requests and Error Resolution Internal Revenue Manuals for controls over
the tax law changes under review. Accurate and timely recording of transactions and events –
we monitored the timeliness of returns processing using the IRS’s Report of Individual Income
Tax Returns Received and Processed and the Miscellaneous Monitoring Report. Appropriate
documentation of transactions and internal controls – when appropriate, we used the IRS’s
Individual Return Transaction File and the Integrated Data Retrieval System to review return
transaction records and posted transactions. We also evaluated the controls that are incorporated
directly into computer applications to help ensure the validity, completeness, and accuracy of
transactions and data during application processing of tax returns for the 2011 Filing Season.




5
    Interim Results of the 2009 Filing Season (Reference Number 2009-40-058, dated March 30, 2009).
                                                                                                      Page 29
                             The Passage of Late Legislation and
                      Incorrect Computer Programming Delayed Refunds
                      for Some Individuals During the 2011 Filing Season



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Tina Parmer, Audit Manager
Kathleen Hughes, Senior Auditor
Sharla Robinson, Senior Auditor
Van Warmke, Senior Auditor
Evan Close, Auditor
Crystal Hamling, Auditor
Kim McMenamin, Auditor
Arlene Feskanich, Senior Information Technology Specialist
Brian Hattery, Senior Information Technology Specialist
Martha Stewart, Senior Information Technology Specialist
Michele Cove, Information Technology Specialist




                                                                                    Page 30
                             The Passage of Late Legislation and
                      Incorrect Computer Programming Delayed Refunds
                      for Some Individuals During the 2011 Filing Season



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 31
                                     The Passage of Late Legislation and
                              Incorrect Computer Programming Delayed Refunds
                              for Some Individuals During the 2011 Filing Season



                                                                                 Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
For most of the outcomes listed in this appendix, we conducted computer analyses of TY 2010
individual income tax returns that were processed by the IRS Submission Processing sites1
between January 1 and April 30, 2011, and were posted to the Individual Master File. We have
also included two outcomes that were follow-up issues from prior reviews. For these outcomes,
we conducted computer analysis of TY 2009 individual income tax returns that were processed
by the IRS Submission Processing sites between May 30 and December 25, 2010, and were
posted to the Individual Master File.

Type and Value of Outcome Measure:
•     Cost Savings (Funds Put to Better Use) – Potential; $16.4 million from 2,812 taxpayers who
      received erroneous First-Time Homebuyer Credits (Homebuyer Credits) (see page 9).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 2,812 taxpayers who were allowed $16.4 million in
Homebuyer Credits when their tax returns were processed during the period May 30 through
December 25, 2010. These taxpayers filed a tax return claiming the Homebuyer Credit as a
long-time resident with a purchase date prior to November 7, 2009.

Type and Value of Outcome Measure:
•     Cost Savings (Funds Put to Better Use) – Potential; $11.4 million from 1,605 taxpayers who
      received erroneous Homebuyer Credits (see page 9).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 1,605 taxpayers who were allowed $11.4 million in
Homebuyer Credits when their tax returns were processed during the period May 30 through
December 25, 2010. These taxpayers filed a tax return claiming a Homebuyer Credit for a home
which had not yet been purchased, but reportedly would be in the future.


1
    See Appendix VI for a glossary of terms.
                                                                                          Page 32
                              The Passage of Late Legislation and
                       Incorrect Computer Programming Delayed Refunds
                       for Some Individuals During the 2011 Filing Season



Type and Value of Outcome Measure:
•   Cost Savings (Funds Put to Better Use) – Potential; $839,130 from 1,901 taxpayers who
    received erroneous refunds of their Homebuyer Credit repayments (see page 9).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 1,901 taxpayers who reported either the required
repayment amount or more than the required repayment amount of their Homebuyer Credit on
their tax returns processed during the period January 1 through April 30, 2011, and had $839,130
in Homebuyer Credit repayments erroneously refunded.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $3.6 million from 15,956 taxpayers not assessed Homebuyer
    Credit repayment amounts that were not paid (see page 9).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 15,956 taxpayers who reported Homebuyer Credit
repayment amounts less than the required repayment amount on their tax returns processed
during the period January 1 through April 30, 2011. These taxpayers were not assessed nearly
$3.6 million in additional taxes for the amount of Homebuyer Credit repayments that was
underpaid.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $1.4 million from 6,027 taxpayers erroneously credited more
    in Homebuyer Credit repayments than they actually paid (see page 9).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 6,027 taxpayers who received erroneous credit for
$1.4 million more in Homebuyer Credit repayments than they actually paid on their tax returns
processed during the period January 1 through April 30, 2011, because the repayment amounts
were erroneously increased by 50 percent without assessing additional tax for the increased
repayment amount.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 2,765 taxpayers were erroneously assessed
    $675,063 more in Homebuyer Credit installment payments than they were required to pay
    (see page 9).



                                                                                        Page 33
                               The Passage of Late Legislation and
                        Incorrect Computer Programming Delayed Refunds
                        for Some Individuals During the 2011 Filing Season



Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 2,765 taxpayers who were erroneously assessed $675,063
more in additional tax than they were required to repay in Homebuyer Credit installment
payments on tax returns processed during the period January 1 through April 30, 2011, because
the repayment amount was erroneously increased by 50 percent and they were assessed the
additional payment amount as additional tax.

Type and Value of Outcome Measure:
•   Cost Savings (Funds Put to Better Use) – Potential; 736 taxpayers erroneously received more
    than $4 million in Adoption Credits (see page 15).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 736 taxpayers who erroneously received more than
$4 million in Adoption Credits on tax returns processed during the period January 1 through
April 30, 2011.
    •   499 taxpayers had overstated Adoption Credit claims that the IRS did not identify and
        send to the Examination function, resulting in these taxpayers receiving $3.34 million in
        erroneous Adoption Credits.
    •   237 taxpayers claimed Adoption Credits for the same child in TYs 2008 and 2009 that
        exceeded the allowable amount and the IRS did not identify and send these claims to the
        Examination function. These taxpayers erroneously received $694,309 million in
        Adoption Credits for the 237 children.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 41,591 taxpayers (see page 15).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 72,330 individual tax returns claiming more than
$895 million in Adoption Credits processed during the period January 1 through April 30, 2011.
Of the 72,330 Adoption Credit claims, 41,591 (58 percent) met IRS documentation criteria for
sending the tax return to its Examination function because the IRS did not have math error
authority to deny the Adoption Credit at the time the tax return was processed.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $76.4 million from 111,804 taxpayers claiming erroneous
    Nonbusiness Energy Property Credits (see page 19).


                                                                                          Page 34
                                 The Passage of Late Legislation and
                          Incorrect Computer Programming Delayed Refunds
                          for Some Individuals During the 2011 Filing Season



Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 111,710 taxpayers who erroneously claimed in excess of
$76.3 million in Nonbusiness Energy Property Credits on tax returns processed during the period
January 1 through April 30, 2011. These taxpayers claimed more than the maximum allowed
$1,500 for the Nonbusiness Energy Property Credit for both TY 2009 and TY 2010. In addition,
we identified 94 taxpayers filing as married who erroneously claimed in excess of $111,000
because they were allowed to claim more than the maximum allowed $3,000 for both TY 2009
and TY 2010.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $32 million from 23,639 taxpayers erroneously claiming
    plug-in electric and alternative motor vehicle credits on e-filed tax returns (see page 20).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify taxpayers who e-filed a tax return claiming plug-in
electric and alternative motor vehicle credits on Qualified Plug-in Electric and Electric Vehicle
Credit (Form 8834), Alternative Motor Vehicle Credit (Form 8910), and Qualified Plug-in
Electric Drive Motor Vehicle Credit (Form 8936) on tax returns processed during the period
January 1 through April 30, 2011. We identified 23,639 taxpayers erroneously claiming
$32 million in these credits with nonqualifying vehicle makes and models.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $3 million in tax has been assessed for 2,034 taxpayers
    previously identified in another review2 with excessive QMV deductions (see page 21).

Methodology Used to Measure the Reported Benefit:
We previously reported that the process to identify potentially erroneous QMV deductions was
not effective, and we identified 7,756 taxpayers with potentially erroneous QMV deductions.
We reported that we planned to monitor IRS progress in verifying the 7,756 potentially
erroneous QMV deductions we had identified and report the amount of increased tax liability for
those QMV deductions disallowed during our 2011 Filing Season review. Our analysis
identified assessments totaling more than $3 million in tax have been made for 2,034 taxpayers.




2
 Millions of Dollars in Questionable Qualified Motor Vehicle Deductions Are Being Allowed (Reference Number
2011-41-037, dated April 15, 2011).
                                                                                                    Page 35
                      The Passage of Late Legislation and
               Incorrect Computer Programming Delayed Refunds
               for Some Individuals During the 2011 Filing Season



                                                                              Appendix V

List of Tax Forms and Schedules Processed
   Through the Modernized E-File System

 Form 1040      U.S. Individual Income Tax Return
 Schedule A     Itemized Deductions
 Schedule B     Interest and Ordinary Dividends
 Schedule C     Profit or Loss From Business
 Schedule D     Capital Gains and Losses
 Schedule E     Supplemental Income and Loss
 Schedule EIC Earned Income Credit
 Schedule M     Making Work Pay Credit
 Schedule R     Credit for the Elderly or the Disabled
 Schedule SE    Self-Employment Tax
 Form 1099-R Distributions From Pensions, Annuities, Retirement or Profit-Sharing
             Plans, IRAs, Insurance Contracts, etc.
 Form 2106      Employee Business Expenses
 Form 2210      Underpayment of Estimated Tax by Individuals, Estates, and Trusts
 Form 2441      Child and Dependent Care Expenses
 Form 4562      Depreciation and Amortization
 Form 4868      Application for Automatic Extension of Time to File U.S. Individual
                Income Tax Return
 Form 8283      Noncash Charitable Contributions
 Form 8812      Additional Child Tax Credit
 Form 8829      Expenses for Business Use of Your Home
 Form 8863      Education Credits (American Opportunity and Lifetime Learning
                Credits)
 Form 8880      Credit for Qualified Retirement Savings Contributions
 Form 8888      Allocation of Refund (Including Savings Bond Purchases)
 Form W-2       Wage and Tax Statement

                                                                                      Page 36
                                The Passage of Late Legislation and
                         Incorrect Computer Programming Delayed Refunds
                         for Some Individuals During the 2011 Filing Season



                                                                                  Appendix VI

                                Glossary of Terms

Adjusted Gross
                           Income minus certain expenses and deductions.
Income
American
                           A partially refundable Federal tax credit to help parents and college
Opportunity Tax
                           students offset the costs of college.
Credit
Electronic Fraud           An automated system used to maximize fraud detection at the time
Detection System           tax returns are filed to eliminate the issuance of questionable refunds.
Electronic Return          The Authorized IRS e-file Provider that originates the electronic
Originator                 submission of a tax return to the IRS. The Electronic Return
                           Originator is usually the first point of contact for most taxpayers
                           filing a tax return using IRS e-file.
Filing Season              The period from January 1 through mid-April when most individual
                           income tax returns are filed.
Fiscal Year                A 12-consecutive-month period ending on the last day of any month
                           except December. The Federal Government’s fiscal year begins on
                           October 1 and ends on September 30.
Free File Program          A free Federal tax preparation and e-filing program for eligible
                           taxpayers developed through a partnership between the IRS and the
                           Free File Alliance LLC. The Alliance is a group of
                           private-sector tax software companies.
Individual Return          Contains data transcribed from initial input of the original individual
Transaction File           tax returns during return processing.
Individual Master File     IRS database that maintains transactions and records of individual
                           tax accounts.
Integrated Data            Computer application consisting of databases and operating
Retrieval System           programs that support IRS employees working active tax cases
                           within each business function across the entire IRS. It manages data
                           extracted from the Corporate Account Data Stores, allowing IRS
                           employees to take specific actions on taxpayer account issues, track
                           status, and post transaction updates back to the Master File.

                                                                                           Page 37
                             The Passage of Late Legislation and
                      Incorrect Computer Programming Delayed Refunds
                      for Some Individuals During the 2011 Filing Season



Master File             The IRS database that stores various types of taxpayer account
                        information. This database includes individual, business, and
                        employee plans and exempt organizations data.
Processing Year         Calendar year in which the tax return or document is processed by
                        the IRS.
Questionable Refund     A nationwide, multi-functional program designed to detect and stop
Program                 fraudulent claims for refunds on income tax returns.
Submission              The data processing arm of the IRS. The sites process paper and
Processing Site         electronic submissions, correct errors, and forward data to the
                        Computing Centers for analysis and posting to taxpayer accounts.
Tax Year                The 12-month period for which tax is calculated. For most
                        individual taxpayers, the tax year is synonymous with the calendar
                        year.




                                                                                     Page 38
              The Passage of Late Legislation and
       Incorrect Computer Programming Delayed Refunds
       for Some Individuals During the 2011 Filing Season



                                                  Appendix VII

Management’s Response to the Draft Report




                                                            Page 39
       The Passage of Late Legislation and
Incorrect Computer Programming Delayed Refunds
for Some Individuals During the 2011 Filing Season




                                                     Page 40
       The Passage of Late Legislation and
Incorrect Computer Programming Delayed Refunds
for Some Individuals During the 2011 Filing Season




                                                     Page 41
       The Passage of Late Legislation and
Incorrect Computer Programming Delayed Refunds
for Some Individuals During the 2011 Filing Season




                                                     Page 42
       The Passage of Late Legislation and
Incorrect Computer Programming Delayed Refunds
for Some Individuals During the 2011 Filing Season




                                                     Page 43
       The Passage of Late Legislation and
Incorrect Computer Programming Delayed Refunds
for Some Individuals During the 2011 Filing Season




                                                     Page 44
       The Passage of Late Legislation and
Incorrect Computer Programming Delayed Refunds
for Some Individuals During the 2011 Filing Season




                                                     Page 45
       The Passage of Late Legislation and
Incorrect Computer Programming Delayed Refunds
for Some Individuals During the 2011 Filing Season




                                                     Page 46
       The Passage of Late Legislation and
Incorrect Computer Programming Delayed Refunds
for Some Individuals During the 2011 Filing Season




                                                     Page 47
       The Passage of Late Legislation and
Incorrect Computer Programming Delayed Refunds
for Some Individuals During the 2011 Filing Season




                                                     Page 48
